      Department of Homeland Security




    Information Technology Management Letter for the
   Federal Law Enforcement Training Center Component
     of the FY 2012 Department of Homeland Security
                 Financial Statement Audit




OIG-13-62                                     April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov



                                      April 4, 2013


MEMORANDUM FOR:              Sandy Peavy
                             Chief Information Officer
                             Federal Law Enforcement Training Center

                             Alan Titus
                             Chief Financial Officer
                             Federal Law Enforcement Training Center

FROM:                        Frank Deffer
                             Assistant Inspector General
                             Office of Information Technology Audits

SUBJECT:                     InformationfTechnologyfManagementfLetterfforfthef
                             FederalfLawfEnforcementfTrainingfCenterfComponentfoff
                             thefFYf2012fDepartmentfoffHomelandfSecurityfFinancialf
                             StatementfAudit

Attached for your action is our final report, InformationfTechnologyfManagementfLetterf
forfthefFederalfLawfEnforcementfTrainingfCenterfComponentfoffthefFYf2012fDepartmentf
offHomelandfSecurityfFinancialfStatementfAudit.ffThe independent accounting firm
KPMG LLP (KPMG) performed the audit of DHS’ financial statements as of September
30, 2012, and prepared this information technology (IT) management letter.ff

KPMG is responsible for the attached IT management letter dated December 12, 2012,
and the conclusion expressed in it. We do not express an opinion on DHS’ financial
statements or internal controls or conclusions on compliance with laws and regulations.
The DHS management concurred with all recommendations.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Sharon Huiswoud, Director,
Information Systems Audit Division, at (202) 254-5451.

Attachment




                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006


April 3, 2013


Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
Federal Law Enforcement Training Center

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012, and the related statements of net cost, changes in net position, and custodial
activity, and combined statement of budgetary resources for the year then ended (referred to as the “fiscal
year (FY) 2012 financial statements”). We were also engaged to audit the Department’s internal control
over financial reporting of the FY 2012 financial statements. The objective of our audit engagement was
to express an opinion on the fair presentation of the FY 2012 financial statements and the effectiveness of
internal control over financial reporting of the FY 2012 financial statements.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
November 14, 2012, included internal control deficiencies identified during our audit engagement that, in
aggregate, represented a material weakness in information technology (IT) controls and financial system
functionality at the DHS Department-wide level. This letter represents the separate limited distribution
report mentioned in that report, of matters related to the Federal Law Enforcement Training Center
(FLETC).
During our audit engagement, we noted certain matters in the areas of access controls, configuration
management, and segregation of duties with respect to FLETC’ financial systems general information
technology controls (GITC). These matters are described in the General IT Control Findings and
Recommendations section of this letter.
The comments described herein have been discussed with the appropriate members of management, or
communicated through a Notice of Finding and Recommendation (NFR), and are intended For Official
Use Only. We aim to use our knowledge of DHS’ organization gained during our audit engagement to
make comments and suggestions that we hope will be useful to you. We have not considered internal
control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key FLETC financial systems within the scope of the FY 2012 DHS financial statement
audit engagement in Appendix A; a description of each internal control finding in Appendix B; and the
current status of the prior year NFRs in Appendix C. Our comments related to financial management and
reporting internal controls (comments not related to IT) have been presented in a separate letter to the
Office of Inspector General (OIG) and the DHS Chief Financial Officer.
This report is intended solely for the information and use of DHS management, DHS OIG, U.S. Office of
Management and Budget, U.S. Government Accountability Office (GAO), and the U.S. Congress, and is
not intended to be and should not be used by anyone other than these specified parties.
Very truly yours,




                                  KPMG LLP is a Delaware limited liability partnership,
                                  the U.S. member firm of KPMG International Cooperative
                                  (“KPMG International”), a Swiss entity.
                               Department of Homeland Security

                          Federal Law Enforcement Training Center

                           Information Technology Management Letter
                                      September 30, 2012



                  INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                      TABLE OF CONTENTS

                                                                                            Page

Objective, Scope, and Approach                                                               1

Summary of Findings and Recommendations                                                      2

General IT Control Findings and Recommendations                                              3

   FLETC                                                                                     3

       Findings                                                                              3

             Access Controls                                                                 3

             Segregation of Duties                                                           3

       Recommendations                                                                       3

   Intelligence and Analysis (I&A) / Operations (Ops) (I&A/Ops)                              3

       Findings                                                                              3

             Configuration Management                                                        3

             Access Controls                                                                 4

       Recommendations                                                                       4

Application Controls                                                                         4


                                          APPENDICES

Appendix                                       Subject                                      Page

            Description of Key FLETC and I&A/Ops Financial Systems and IT Infrastructure
   A
            within the Scope of the FY 2012 DHS Financial Statement Audit 

                                                                                             5

   B        FY 2012 Notices of IT Findings and Recommendations at FLETC and I&A/Ops          7

            Status of Prior Year Notices of Findings and Recommendations and Comparison 

   C
            to Current Year Notices of Findings and Recommendations (at FLETC only)
                                                                                             9




           Information Technology Management Letter for the FLETC Component of the

               FY 2012 Department of Homeland Security Financial Statement Audit 

                                 Department of Homeland Security

                            Federal Law Enforcement Training Center

                             Information Technology Management Letter
                                        September 30, 2012


                            OBJECTIVE, SCOPE, AND APPROACH

In connection with our engagement to audit the financial statements of DHS as of and for the year ended
September 30, 2012, we performed an evaluation of general Information Technology (IT) controls
(GITCs) at FLETC and I&A/Ops, to assist in planning and performing our audit engagement. FLETC
provides financial management services to I&A/Ops and hosts a separate Momentum environment, which
was developed to mirror the FLETC Momentum environment. The Federal Information System Controls
Audit Manual (FISCAM), issued by the GAO, formed the basis of our GITC evaluation procedures. The
scope of the GITC evaluation is further described in Appendix A.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
federal agency. FISCAM defines the following five control functions to be essential to the effective
operation of GITCs and the IT environment.

   Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

   Access Control (AC) – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

   Configuration Management (CM) – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provides reasonable assurance
   that systems are configured and operating securely and as intended.

   Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.

   Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our GITC audit procedures, we conducted a review over the FLETC’s technical security
testing for key network and system devices, and performed testing over key financial application controls
in the FLETC environment.

In addition to testing FLETC’s general control environment, we performed application control tests on a
limited number of FLETC’s financial systems and applications. The application control testing was
performed to assess the controls that support the financial systems’ internal controls over the input,
processing, and output of financial data and transactions.

        Application Controls (APC) - Application controls are the structure, policies, and procedures that
        apply to separate, individual application systems, such as accounts payable, inventory, or payroll.




          Information Technology Management Letter for the FLETC Component of the

              FY 2012 Department of Homeland Security Financial Statement Audit 

                                          Page 1

                                 Department of Homeland Security

                            Federal Law Enforcement Training Center

                             Information Technology Management Letter
                                        September 30, 2012


                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2012, FLETC took corrective action to address one of the IT control weaknesses from the
prior year. FLETC decommissioned the Student Information System, which was previously in the scope
of the financial audit. However, during FY 2012, we identified IT general control weaknesses that could
potentially impact FLETC’s financial data.

FLETC provides financial management services to I&A/Ops and hosts a separate Momentum
environment, which was developed to mirror the FLETC Momentum environment. However, we found
that the most significant findings from a financial statement audit perspective were related to the
I&A/Ops Momentum database access control and configuration management. In addition, we noted that
after several years of improved processes over technical security testing, FLETC has inadequate patch
management over servers and workstations. Collectively, the IT control deficiencies limited FLETC’s
ability to ensure that critical financial and operational data were maintained in such a manner to ensure
confidentiality, integrity, and availability.

Of the 4 findings identified during our FY 2012 testing; 3 were new IT findings. These findings represent
control deficiencies in three of the five FISCAM key control areas: configuration management, access
controls, and segregation of duties. Specifically, these control deficiencies include the need for:

    1. Better designed and operating configuration management;
    2. Effective segregation of duties controls within a financial application;
    3. Patch management; and
    4. Stronger account management.

These control deficiencies may increase the risk that the confidentiality, integrity, and availability of
system controls and FLETC financial data could be exploited thereby compromising the integrity of
financial data used by management as reported in DHS’ consolidated financial statements. While the
recommendations made by KPMG should be considered by FLETC, it is the ultimate responsibility of
FLETC management to determine the most appropriate method(s) for addressing the weaknesses
identified based on their system capabilities and available resources.




           Information Technology Management Letter for the FLETC Component of the

               FY 2012 Department of Homeland Security Financial Statement Audit 

                                           Page 2

                                 Department of Homeland Security

                            Federal Law Enforcement Training Center

                             Information Technology Management Letter
                                        September 30, 2012


             GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

FLETC

Findings:

During our engagement to audit the FY 2012 DHS financial statements, we identified the following
FLETC GITC control deficiencies.

Access Controls
   Security patch management deficiencies were identified during the vulnerability assessment on the
   platforms supporting the key financial applications and general support systems.
Segregation of Duties
   Procedures to enforce least privilege and segregation of duties to Momentum were not effectively
   managed.

Recommendations:

We recommend that the FLETC Chief Information Officer (CIO) and Chief Financial Officer (CFO), in
coordination with the DHS Office of Chief Financial Officer (OCFO) and the DHS Office of the Chief
Information Officer (OCIO), make the following improvements to FLETC’s financial management
systems and associated information technology security program.

For Access Controls
   Enforce existing vulnerability management procedures which require updating security patches in a
   timely manner.
For Segregation of Duties
   Enforce policies and procedures to ensure that assigned roles and responsibilities are commensurate
   with personnel job functions.

I&A/Ops

Findings:

During our engagement to audit the FY 2012 DHS financial statements, we identified the following
I&A/Ops IT and financial system control deficiencies that, while they were not a contributing factor to
the material weaknesses at the Department level, need improvement.

Configuration Management
   Evidence to support that Momentum I&A/Ops system changes were approved and tested prior to
   movement into the production environment was not maintained.




            Information Technology Management Letter for the FLETC Component of the

                FY 2012 Department of Homeland Security Financial Statement Audit 

                                            Page 3

                                Department of Homeland Security

                           Federal Law Enforcement Training Center

                            Information Technology Management Letter
                                       September 30, 2012


Access Controls
   Access controls within the I&A/Ops Momentum environment were not effectively managed:
   -   User access was not consistently provisioned in accordance with “least privilege” principles;
       specifically, two I&A/Ops employees had access privileges in excess of VIEW;
   -   Profile change approvals were not consistently documented; specifically, one of two users
       selected had his or her access privileges modified without having formally documented approval;
   -   User access was not consistently revoked upon employee termination; specifically, two FLETC
       personnel retained active I&A/Ops Momentum access following their separation; and,
   -   User access was not recertified.

Recommendations:

We recommend that the FLETC CIO and CFO, in coordination with the DHS OCFO and the DHS OCIO,
make the following improvements to FLETC’s financial management systems and associated information
technology security program.

For Configuration Management
   Develop and implement policies and procedures to approve and test I&A/Ops Momentum changes
   prior to movement into the production environment.
For Access Controls
   Develop and implement policies and procedures to formalize access management and user profile
   monitoring for the Momentum I&A/Ops environment.


                                   APPLICATION CONTROLS

We did not identify any findings in the area of application controls during the fiscal year 2012 FLETC
audit engagement.




          Information Technology Management Letter for the FLETC Component of the

              FY 2012 Department of Homeland Security Financial Statement Audit 

                                          Page 4

                                                                          Appendix A
                         Department of Homeland Security

                    Federal Law Enforcement Training Center

                     Information Technology Management Letter
                                September 30, 2012




                                 Appendix A

Description of Key FLETC and I&A/Ops Financial Systems and IT 

  Infrastructure within the Scope of the FY 2012 DHS Financial 

                         Statement Audit 





      Information Technology Management Letter for the FLETC Component of the

          FY 2012 Department of Homeland Security Financial Statement Audit 

                                      Page 5

                                                                                           Appendix A
                                Department of Homeland Security

                           Federal Law Enforcement Training Center

                            Information Technology Management Letter
                                       September 30, 2012

Below is a description of significant FLETC financial management systems and supporting IT
infrastructure included in the scope of FLETC’s FY 2012 financial statement audit.
Financial Accounting and Budgeting System (FABS)
The FLETC FABS application is an all-in-one financial processing system. It functions as the
computerized accounting and budgeting system for FLETC. FLETC provides financial management
services to I&A/Ops and hosts a separate Momentum environment, which was developed to mirror the
FLETC Momentum environment. The FABS system exists to provide all of the financial and budgeting
transactions in which FLETC is involved. An application called “Tuxedo,” also resides on a separate
server. The Tuxedo middleware holds 67 executable files. These files are scripts that process daily
information and are not directly accessible by users. The FABS application and servers reside on the
FLETC Local Area Network in a Hybrid physical network topology and are accessible from four sites:
Georgia (GA), Washington DC, New Mexico, and Maryland.
Glynco Administrative Network (GAN)
The purpose of the GAN is to provide access to IT network applications and services to include voice to
authorized FLETC personnel, contractors and partner organizations located at the Georgia facility. It
provides authorized users access to email, internet services, required applications such as financial
management systems, procurement systems, property management systems, video conference, and other
network services and shared resources. The GAN is located in GA.




          Information Technology Management Letter for the FLETC Component of the

              FY 2012 Department of Homeland Security Financial Statement Audit 

                                          Page 6

                                                                         Appendix B
                        Department of Homeland Security

                   Federal Law Enforcement Training Center

                    Information Technology Management Letter
                               September 30, 2012




                                Appendix B

FY 2012 Notices of IT Findings and Recommendations at FLETC 

                         and I&A/Ops





     Information Technology Management Letter for the FLETC Component of the

         FY 2012 Department of Homeland Security Financial Statement Audit 

                                     Page 7

                                                                                                                      Appendix B
                                             Department of Homeland Security

                                        Federal Law Enforcement Training Center

                                         Information Technology Management Letter
                                                    September 30, 2012

                                                                                                                 New     Repeat
FY 2011 NFR #                               NFR Title                                  FISCAM Control Area
                                                                                                                 Issue    Issue
FLETC-IT-12-01   Ineffective Segregation of Duties Controls for the Momentum System     Segregation of Duties              X
FLETC-IT-12-02   FLETC Servers and Workstations have Inadequate Patch Management      Configuration Management    X
MGA-IT-12-03      I&A/Ops Momentum Access Controls are not Consistently Applied           Access Controls         X
MGA-IT-12-04      Configuration Changes for the I&A/Ops Momentum System are not       Configuration Management    X
                                     Consistently Documented




                      Information Technology Management Letter for the FLETC Component of the

                          FY 2012 Department of Homeland Security Financial Statement Audit 

                                                      Page 8

                                                                          Appendix C
                         Department of Homeland Security

                    Federal Law Enforcement Training Center

                     Information Technology Management Letter
                                September 30, 2012




                                 Appendix C

Status of Prior Year Notices of Findings and Recommendations and 

       Comparison to Current Year Notices of Findings and 

                Recommendations (at FLETC only) 





      Information Technology Management Letter for the FLETC Component of the

          FY 2012 Department of Homeland Security Financial Statement Audit 

                                      Page 9

                                                                                                              Appendix C
                                            Department of Homeland Security

                                       Federal Law Enforcement Training Center

                                        Information Technology Management Letter
                                                   September 30, 2012

                                                                                                    Disposition
    NFR #                                            Description
                                                                                           Closed                 Repeat
FLETC-IT-11-01   Ineffective Logical Access Controls over the GAN                               X
FLETC-IT-11-02   Ineffective Segregation of Duties controls for the Momentum System                                 X




                     Information Technology Management Letter for the FLETC Component of the

                         FY 2012 Department of Homeland Security Financial Statement Audit 

                                                    Page 10

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
